U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


SELECTED FEDERAL GRANT PROGRAMS,
    DEPARTMENT OF EDUCATION,
GOVERNMENT OF THE VIRGIN ISLANDS

             REPORT NO. 99-I-956
              SEPTEMBER 1999




                                   3
                                                                         V-IN-VIS-002-99-M
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, DC. 20240



Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report on Selected Federal Grant Programs, Department of Education,
         Government of the Virgin Islands (No. 99-I-956)

Dear Governor Turnbull:

This report presents the results of our review of the management of selected Federal grant
programs at the Virgin Islands Department of Education. The objective of the audit was to
determine whether (1) the Department complied with grant terms and applicable laws and
regulations; (2) charges made against grant funds were reasonable, allowable, and allocable
pursuant to the grant agreement provisions; (3) funds received through electronic transfers
were appropriately deposited to and accounted for in the Government’s Financial
Management System; and (4) drawdowns were made in accordance with the Cash
Management Improvement Act of 1990. The scope of the audit included Education
Consolidated Grant transactions and School Lunch Program warehouse activities that
occurred during fiscal years 1997 and 1998.

Based on our audit, we concluded that the Department of Education generally expended grant
funds for purposes that were allowable under the grants. However, the Department did not
effectively carry out some of the administrative functions related to the Consolidated Grant
and the School Lunch Program. Specifically, we found that:

        - The Department did not (1) ensure that personal services costs were properly
supported and were charged to the correct accounts and (2) prepare and submit accurate grant
financial reports within the required time frames. As a result, we took exception to payroll
charges of $61,800 and classified as unsupported additional payroll charges of $8,340.
Additionally, the Department was at risk of losing Federal grant funds because it had not
complied with grant program requirements, particularly as they related to the Special
Education program.

        - The Department did not (1) effectively expend Consolidated Grant funds when
making purchases and (2) have adequate control over equipment purchased with Federal
funds. As a result, there was little assurance that the Department received the best prices for
goods and services totaling $2.1 million in fiscal year 1997 and $4.1 million in fiscal year
1998 that were purchased noncompetitively. Also, equipment costing at least $1 million was
not adequately safeguarded and was therefore subject to loss, damage, or theft.
        - The Department did not ensure that the School Lunch Program warehouses had
adequate controls over food and other commodities that included (1) accurately recording
incoming shipments and distributions of items, (2) accurately and continuously updating
perpetual inventory records, (3) periodically performing physical inventories of items on
hand, (4) reconciling the results of the physical inventories to the inventory records,
(5) submitting required inventory reports within established time frames, and (6) ensuring
adequate separation of duties among warehouse personnel. As a result, food and other
commodities of undeterminable value were subject to loss, pilferage, and spoilage.

We made 11 recommendations to you, as the Governor of the Virgin Islands, to address the
deficiencies identified by the audit. However although a response was due by September 3,
1999, we had not received a response to that draft as of September 22,1999. Therefore, the
report is being issued without the benefits of your comments, and the 11 recommendations
are unresolved (see Appendix 2).

Section 5(a) of the Inspector General Act (Public Law 95-452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to. the Congress.
Therefore, please provide a response to this report by November 12, 1999. The response
should be addressed to our Caribbean Office, Federal Building - Room 207, Charlotte
Amalie, Virgin Islands 00802. The response should provide the information requested in
Appendix 2.

We appreciate the assistance provided by Department of Education personnel during the
conduct of our audit.

                                             Sincerely,



                                             Earl E. Devaney
                                             Inspector General             \)
                                            CONTENTS
                                                                                                                                   Page

INTRODUCTION .,.................................................,. 1

     BACKGROUND.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     OBJECTIVE AND SCOPE ........................................ 1
     PRIOR AUDIT COVERAGE ...................................... 2

FINDINGS       AND        RECOMMENDATIONS                                  ........................_...._...                             4

     A. GRANTMANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
     B. PROCUREMENT AND PROPERTY MANAGEMENT .............. 10
     C. SCHOOL LUNCH WAREHOUSE OPERATIONS .................. 15

OTHER        MATTERS                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . _ . . . . . . . . . . . _ . . . . . 19

APPENDICES

     1. CLASSIFICATION OF MONETARY AMOUNTS ................. .20
     2. STATUS OF AUDIT REPORT RECOMMENDATIONS ............ .21
                                 INTRODUCTION
BACKGROUND

The Virgin Islands Department of Education is responsible for administering and operating
all public elementary and secondary schools; vocational, adult, and special education
programs; and support services such as curriculum centers and libraries for both public and
nonpublic schools. The Department received annual Consolidated Grant awards from the
U.S. Department of Education under authority of the Elementary and Secondary Education
Act of 1965. The Consolidated Grant permits the consolidation of two or more authorized
programs under one application to provide for simplified reporting procedures and flexibility
in allocating funds to meet educational needs. The Virgin Islands Department of Education
managed 29 individual programs under the Consolidated Grant, and grant funds were
distributed between the districts of St. Thomas/St. John and St. Croix.

Funds provided through the Consolidated Grant awards were available for overlapping 2-year
periods. Accordingly, in fiscal year 1997, the Department received $17.2 million for the
period of October 1, 1996, to September 30, 1998, and in fiscal year 1998, the Department
received $19.7 million for the period of October 1, 1997, to September 30, 1999. As of
November 5, 1998, drawdowns totaled $15.1 million from the fiscal year 1997 award and
$11 million from the fiscal year 1998 award.

The Virgin Islands Department of Education also participated in the National School Lunch
Program, which is funded by the U.S. Department of Agriculture. The Virgin Islands
Department of Education received $5.4 million in fiscal year 1997 and $6.1 million in fiscal
year 1998 for School Lunch Program operations.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether (1) the Virgin Islands Department of
Education complied with grant terms and applicable laws and regulations; (2) charges made
against grant funds were reasonable, allowable, and allocable pursuant to the grant agreement
provisions; (3) funds received through electronic transfers were appropriately deposited to
and accounted for in the Government’s Financial Management System; and (4) drawdowns
were made in accordance with the Cash Management Improvement Act of 1990.

The scope of the audit included a review of Education Consolidated Grant and School Lunch
Program warehouse activities that occurred during fiscal years 1997 and 1998. The audit was
conducted at the offices of the Department of Education and the Department of Finance and
at the School Lunch Program warehouses on St. Thomas and St. Croix.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.
As part of our audit, we evaluated the internal controls over grant management, personnel
costs, procurement, property management, and School Lunch Program warehouse operations
to the extent that we considered necessary to achieve the audit objective. Internal control
weaknesses were identified in the areas of personnel costs, financial accounting and
reporting, procurement, property management, and School Lunch warehouse operations.
These weaknesses are discussed in the Findings and Recommendations section ofthis report.
Our recommendations, if implemented, should improve the internal controls in these areas.
Internal control weaknesses related to the drawdown process at the Department of Finance
will be addressed in a separate audit report.

PRIOR AUDIT COVERAGE

The Offke of Inspector General has not conducted any audits of the Consolidated Grant
during the past 5 years. However, four reports on related topics have been issued as follows:

        - In September 1998, the Office of Inspector General issued the audit report
“Interfund Loans and Federal Grant Balances, Government of the Virgin Islands” (No. 98-I-
670). The report stated that complete, current, and reliable information on the balances of
Federal grants awarded to the Government was not readily available and that the Government
had not taken adequate actions to correct long-standing financial management problems that
had an adverse impact on its financial condition. Federal grant management within the
Virgin Islands Department of Education was included in the scope of that audit, and we
found, during our current review, that the reported conditions relating to the untimely
submission of grant financial reports, the untimely liquidation of encumbrances, and the
untimely processing of requisitions still existed.

        - In December 1996, an independent public accounting firm completed the single
audit of the Government of the Virgin Islands for fiscal year 1994. The report stated that for
two of the Virgin Islands Department of Education’s major grant programs, the Department
(1) prepared the Federal Financial Reports and Claims for Advances and Reimbursements
based on information contained in internal accounting records rather than in the
Government’s centralized Financial Management System, (2) did not reconcile its internal
accounting records to the Financial Management System, and (3) did not comply with the
requirement for monitoring subrecipients. The single audit report included 14 findings and
questioned costs totaling $272,034 that were specifically related to Department of Education
grants. The findings relating to property management, financial reporting, and supporting
documentation for payroll and procurement transactions were similar to the findings
discussed in this report.

        - In September 1995, the Office of Inspector General issued the audit report “School
Lunch Program, Department of Education, Government of the Virgin Islands” (No. 95-I-
1258). The report stated that improvements were needed in the administration of the School
Lunch Program and in the level of control over inventories of food and other commodities.
Specifically, reimbursement claims for meals served to students were not always complete,
accurate, or timely, and food and other commodities in School Lunch Program warehouses
were subject to loss and theft because perpetual inventory records were incomplete and

                                              2
inaccurate and physical inventories were not conducted of all items in stock. Additionally,
large quantities of food items spoiled because of malfunctioning refrigeration equipment, and
items could not be distributed efficiently to individual schools because of the lack of
adequate transportation. We found, during our current audit, that the conditions related to
warehouse operations still existed.

        - In February 1991, the Office of Inspector General issued the audit report
“Consolidated Grant Program, Department of Education, Government of the Virgin Islands”
(No. 91-E-389). The report stated that payroll costs of $127,400 were questioned for
individuals who did not perform duties directly related to the Consolidated Grant programs
and that a duplicate payment of $2,200 to a vendor was also questioned. The report also
stated that there was a possible conflict of interest involving a payment of $800 to a Virgin
Islands Government employee for the removal of asbestos from schools. In addition, the
report stated that the procedures for preparing drawdown requests, monitoring program
activities, and coordinating overall grant management needed to be strengthened. We
considered three of the report’s eight recommendations unresolved and five
recommendations resolved and implemented. Based on our current audit, we found that the
deficiencies related to overall grant management still existed.
               FINDINGS AND RECOMMENDATIONS

A. GRANT MANAGEMENT

The Virgin Islands Department of Education did not ensure that personal services costs were
properly supported and were charged to the correct accounts and did not prepare and submit
accurate grant financial reports within the required time frames. U.S. Office of Management
and Budget Circular A-87, “Cost Principles for State, Local, and Indian Tribal
Governments,” contains the standards for the allowability of grant costs, and the Code of
Federal Regulations (34 CFR SO), “Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments,” contains the administrative
requirements for grant programs. However, the Department did not (1) establish procedures
to verify that correct account codes for employees’ payroll costs were entered into the
Financial Management System, (2) ensure that personnel files were complete and accurate,
and (3) enforce compliance with the financial reporting requirements for the Consolidated
Grant. As a result, we questioned costs of $70,140: cost exceptions of $6 1,800 for payroll
charges and unsupported costs of $8,340 for additional payroll charges (see Appendix 1).
In addition, the Department was at risk of losing future Federal funding because of
noncompliance with grant program requirements.

Personal Services Costs

Circular A-87, Attachment B, paragraph 1 l(h)(l), states, “Charges to Federal awards for
salaries and wages, whether treated as direct or indirect costs, will be based on payrolls
documented in accordance with generally accepted practice of the governmental unit and
approved by a responsible official(s) of the governmental unit.” Circular A-87 also requires
that the payroll costs for employees who are expected to work for only one activity be
supported at least by semiannual certifications that the employees’ work activities are for the
specific program. When employees are expected to work for more than one activity, detailed
personnel activity reports or other time distribution records are required to be maintained to
record the number of hours worked by the employees on each activity, and those records are
required to be used to distribute the related payroll costs among the various activities. To
determine the extent of compliance with Circular A-87, we reviewed the payroll documents
for a sample of 10 pay periods from fiscal years 1997 and 1998, which had salaries and fringe
benefits totaling $2.7 million. Based on our review, we took exception to payroll costs of
$61,800 and classified costs of $8,100 as unsupported for the 10 pay periods reviewed as
follows:

        - We took exception to payroll costs of $37,200 for 22 Consolidated Grant employees
whose salaries were incorrectly charged to account codes for work that was not for the
Consolidated Grant. Under established procedures, Notices of Personnel Action are prepared
and the appropriate information is entered into the centralized payroll system by the Division
of Personnel. The Department of Education then receives preprinted biweekly Time and
Attendance Records for the preparation of payroll for submission to the Department of
Finance for processing and payment. Department of Education officials told us that Division

                                              4
of Personnel employees may have inadvertently entered the incorrect account codes but that
the Department of Education’s Payroll Office had not detected the incorrect codes.

        - We took exception to payroll costs of $24,600 for five employees who did not work
directly for Consolidated Grant programs. Three employees were paid $3,700 from
Consolidated Grant funds, although they worked for the School Lunch Program. One
employee was paid $13,700 from Consolidated Grant funds, although the individual worked
for a separate Education grant, and one employee was paid $7,200 from Consolidated Grant
funds, although the employee worked for General Fund activities. We brought the
$7,200 error to the attention of Department of Education officials, who notified the
Department’s Payroll Office to make the necessary corrections.

At the July 28,1999, exit conference on the preliminary draft of this report, the Department’s
payroll officer stated that the correction had been made.

       - We classified as unsupported payroll costs of $8,100, which represented
unreconciled variances between the Time and Attendance Reports submitted by the
Department’s Payroll Office for processing and the Payroll Registers that documented the
payrolls. We initially identified 85 variances, totaling 1,497.5 hours, but Department of
Education officials were able to explain 77 of the variances. The remaining eight variances
accounted for 95 hours and payroll costs of $8,100.

The Department of Education should process the necessary documents to correct the
erroneous payroll charges we identified. In addition, we believe that the Department of
Education should establish written procedures to require the initial salaries and subsequent
salary changes for all Consolidated Grant employees to be verified between the Notices of
Personnel Action and the first payroll register on which the new or revised salary appears.
For subsequent pay periods, the current payroll totals should be compared with the totals on
the prior payroll register to identify variances for more detailed followup review.

At the July 28, 1999, exit conference on the preliminary draft of this report, Department of
Education officials said that although they reviewed payroll records to identify incorrect
account codes or salaries for new employees, they may not have always followed through to
request that the Division of Personnel make the necessary corrections to the master payroll
file in the Government’s Financial Management System. They also stated that when they
submit adjustments to the Department of Finance to have payroll errors corrected, the
Department of Finance does not always enter the adjustments into the Financial Management
System in a timely manner.

         Personnel Files. As an additional test of the accuracy of personal services costs
charged to the Consolidated Grant, we attempted to review the personnel files for a
judgmental sample of 56 employees. We found that the personnel files were not adequately
maintained. The Department’s Personnel and Labor Relations Office could not verify that
 11 individuals listed in the Time and Attendance Records but not on personnel listings of the
Consolidated Grant program worked at the Department of Education. Initially, St. Thomas
officials told us that 7 of the 11 personnel files were located at the Department’s St. Croix

                                              5
office. However, that office also did not have the missing personnel files. Although only
1 of the 11 individuals incurred payroll costs totaling $240, Department employees could not
explain how the 11 individuals’ names were included on the preprinted Time and Attendance
Records without supporting personnel files. Therefore, we classified the $240 as
unsupported.

We also found that 18 of the 56 employees in our sample were listed more than once on the
personnel listing for the Consolidated Grant. Department of Education officials said that
these 18 employees had dual employment status, in that they worked for more than one
program activity. However, there were no Notices of Personnel Action on file to document
the dual employment status of 5 of the 18 individuals. The dual employment status for the
other 13 employees was satisfactorily documented.

We believe that the Department should require its Personnel and Labor Relations Office to
review the personnel files for all Consolidated Grant employees and take actions to ensure
that all appropriate Notices of Personnel Action are prepared and placed in the files. In
addition, the Department should establish written procedures to require that the personnel
files are promptly updated with copies of Notices of Personnel Action and other supporting
documents for all future personnel actions involving Consolidated Grant employees.

At the July 28,1999, exit conference on the preliminary draft of this report, the Department’s
personnel officer stated that her office was reviewing and updating the personnel files for all
Department of Education employees.

Grant Compliance Issues

The Code of Federal Regulations (34 CFR 80.20(a)) requires that fiscal controls and
accountability procedures of entities that receive Education grants be sufficient to permit the
following:

         (1) . . . preparation of reports required by this part [of the Code] and the
       statutes authorizing the grant, and
         (2) . . . the tracing of funds to a level of expenditures adequate to establish
       that such funds have not been used in violation of the restrictions and
       prohibitions of applicable statutes.


However, the Virgin Islands Department of Education did not always comply with these
requirements. Specifically, the Department’s internal financial management system did not
provide accounting records that were supported by source documents. During our review,
we requested the supporting documents used to prepare the Financial Status Reports for
fiscal years 1997 and 1998. We found that the appropriations, obligations, and unobligated
balances on the Department’s Internal Balances Report for fiscal year 1997 did not match the
amounts shown on the Department’s Financial Status Report that was submitted to the U.S.
Department of Education for the same fiscal year. Further, the Department did not provide
us the supporting documents for the Financial Status Report for fiscal year 19o’

                                              6
:                         ‘: 11 e itlected 45 \.endor files for our review of procurement activities
                        (_.




j .~.                       )~!?artment \vas unable to provide 19 of those vendors’ files, which
\\S I,#,..     (_L,     -ii ~ilnpar~ing documents for purchases from those 19 vendors.

LL c Ad ~CUIIJ hi ri:? Department did not submit the Financial Status Report for fiscal year
1 WS lir the grantt’r ,l~snc~~. The Code of Federal Regulations (34 CFR 80.41(b)) requires
that granttzes submit an Lmnual report on the status of funds (the Financial Status Report) for
all nonconstruction projects Lvithin 90 days after the grant year. Although the Department’s
Financial Status Report for the Consolidated Grant for fiscal year 1998 was signed by the
Commissioner of Education and dated December 18, 1998, an official of the U.S.
Department of Education told us. on May 19, 1999, that the report had not been received.
An official of the Virgin Islands Department of Education subsequently confirmed that the
Financial Status Report for fiscal year 1998 had not been submitted to the U.S. Department
of Education.

We further noted that programs which received funding under Title VI ofthe Elementary and
Secondary Education Act were not in compliance with the terms of the Consolidated Grant
applicable to Title Vl programs. Specifically, education agencies receiving Title VI funds
are required to monitor all programs receiving such funds. In the Virgin Islands, Title VI
funds were monitored by the Department of Education’s Planning, Research, and Evaluation
Office. which issued compliance alerts’ as follows:

         - In February 1999, the Planning, Research, and Evaluation Office wrote to the
Administrative Assistant stating that future Federal funds were being withheld from the
Special Education Program until compliance issues were satisfactorily addressed. We
determined from our review of expenditure records that about 4 months earlier
(September 27. 1998. to October 1, 1998). the Special Education Program held a State Plan
Retreat Forum on St. John at a cost of $39,500 (see Appendix l), excluding the salary costs
of participants, to develop a plan for the Special Education Program. In our opinion, these
funds could have been used in correcting the compliance deficiencies that put the Program
at risk of losing Federal funds. In early 1999, the Special Education Program was the subject
of 16 lawsuits brought against the program by parents of children with special needs. Also,
a notice was pllblishrd in the May 10, 1999, edition of a local newspaper to announce that
public hearings had been scheduled to discuss whether the U.S. Department of Education
should enter into a compliance agreement with the Virgin Islands Department of Education
for continued funding under Part B of the Individuals with Disabilities Education Act while
the Virgin Islands Department of Education worked to achieve compliance with the
requirements of that statute. Under the compliance agreement, the U.S. Department of
Education could impose strict conditions on the Virgin Islands Department of Education as
a prerequisite for receiving additional Federal funds. In July 1999, U.S. Department of
Education Special Education Program officials told us that they had made on-site visits to
Special Education classrooms in the Virgin Islands and had found the conditions for children




‘A “compliance alert” is a notice that a grant compliance problem exists.

                                                     7
with special needs to be of such “poor quality” that they had recommended the immediate
execution of the proposed compliance agreement.

        - In February 1999, the Planning, Research, and Evaluation Office issued a
compliance alert to the Commissioner of Education addressing the problem of the untimely
receipt of materials and equipment needed for the Vocational Education Program.

         - In January 1999, the Planning, Research, and Evaluation Office issued a compliance
alert to the Acting Commissioner of Education to address delays in initiating the Marine and
Aviation Programs.

We believe that the Virgin Islands Department of Education should ensure that it has grant
management procedures in place to ensure that (1) source documents are prepared and
maintained to support that costs charged against Consolidated Grant funds are allowable,
(2) Financial Status Reports are submitted within required time frames and are reconciled
to the official accounting records, and (3) compliance deficiencies reported by the
Department’s Planning, Research, and Evaluation Office are corrected by the appropriate
program officials.

Recommendations

We recommend that the Governor of the Virgin Islands direct the Commissioner of
Education to:

       1. Process the necessary documents to correct the erroneous payroll charges totaling
$70,140 that were identified by our review and provide copies of all related supporting
documents to grant program officials of the U.S. Department of Education.

        2. Establish and implement procedures to require that the initial salaries and
subsequent salary changes for all Consolidated Grant employees be verified between the
Notices of Personnel Action and the first payroll register on which the new or revised salary
appears and that the current payroll totals be compared with the totals of the prior payroll
register for subsequent pay periods to identify variances between the two pay periods that
require more detailed followup review.

         3. Require the Personnel and Labor Relations Office of the Department of Education
to review the personnel files for all Consolidated Grant employees and take actions to ensure
that all appropriate Notices of Personnel Actions are prepared and placed in the tiles.

      4. Establish and implement procedures which require that the personnel files be
promptly updated with copies of Notices of Personnel Action and other supporting
documents for all future personnel actions involving Consolidated Grant employees.

       5. Establish and implement grant management procedures which ensure that source
documents are prepared and maintained to support that costs charged against Consolidated
Grant funds are allowable; required Financial Status Reports are submitted within required

                                              8
time frames and are reconciled to the official accounting records; and compliance
deficiencies reported by the Department’s Planning, Research, and Evaluation Office are
corrected by the appropriate program officials.

Governor of the Virgin Islands Response and Office of Inspector General
Reply
The Governor of the Virgin Islands did not provide a response to the report. Therefore, the
recommendations are unresolved (see Appendix 2).
B. PROCUREMENT AND PROPERTY MANAGEMENT

The Virgin Islands Department of Education did not effectively expend Consolidated Grant
funds when making purchases and did not have adequate controls over equipment purchased
with Federal funds. Specifically, (1) purchases were made on the open market without the
benefit of competition, consolidated orders, or formal purchase contracts and (2) the receipt
of purchased items was not centralized, equipment was not adequately safeguarded, and
disposals of equipment were not adequately documented. Title 3 1, Chapter 23, of the Virgin
Islands Code and the Virgin Islands Rules and Regulations contain the procurement
requirements for the Government of the Virgin Islands, and the Code of Federal Regulations
(34 CFR 80, “Uniform Administrative Requirements for Grants and Cooperative Agreements
to State and Local Governments”) contains the administrative requirements related to
procurement and property management for grant programs. However, the Department did
not comply with the required procurement regulations and did not establish adequate
procedures for the control of equipment. As a result, there was little assurance that the
Department received the best prices for goods and services totaling $2.1 million in fiscal year
1997 and $4.1 million in fiscal year 1998 that were purchased noncompetitively, and
equipment costing at least $1 million was not adequately safeguarded and therefore was
subject to loss, damage, or theft.

Procurement Activities

The Code of Federal Regulations (34 CFR 80.36(a)) states, “When procuring property and
services under a grant, a State will follow the same policies and procedures it uses for
procurements from its non-Federal funds.” Title 3 1, Chapter 23, of the Virgin Islands Code
and the Virgin Islands Rules and Regulations require that all purchases be made on a
competitive basis to the maximum extent practicable. However, the Department routinely
made purchases without competition and did not consolidate purchases from the same
vendors.

The established procurement process begins when a school requests the necessary items from
the District Superintendent’s Office. The District Superintendent’s Office prepares the
purchase order/requisition and submits it to the Department’s Property and Procurement
Auxiliary Services Office for review of compliance with the procurement requirements and
then forwards it to the Department’s Business Office for verification of the availability of
funds. The purchase order/requisition is then forwarded for additional processing by the
Department of Property and Procurement, the Department of Finance, and the Department
ofEducation’s Business Office. The purchase order/requisition is returned to the Department
of Education’s Property and Procurement Auxiliary Services Office for mailing to the
vendor. In our opinion, the procurement process within the Department of Education was
unnecessarily complex and cumbersome, which resulted in orders taking an average of
5 months (and as long as 13 months) to be filled. A Department of Education official agreed
with our assessment, stating that the procurement process was “too drawn out” and that funds
sometimes expired before ordered items were received.



                                              10
We reviewed a judgmental sample of 97 purchase orders for equipment, totaling $959,060,
that were processed during fiscal years 1997 and 1998 for public schools on St. Thomas and
St. Croix. We found that the schools contacted vendors directly and made purchases without
the benefit of competition or formal purchase contracts. We also found that the Department
of Education made multiple purchases of equipment from the same vendor within a 30-day
period, although Title 3 1, Section 239(a)(3), of the Virgin Islands Code states that “no more
than one such purchase of the same supplies, material, or equipment or contract for the same
professional service shall be made by any agency of the Government from any person, firm,
partnership, or corporation in any 30-day period.” For example, during the period of
February 18 through July 9, 1997, the Department processed 11 purchase orders, totaling
$204,633, with the same vendor for computer equipment, as shown in Table 1.

                 Table 1. Multiple Purchases From the Same Vendor

                  Requisition Date                Amount         Deliverv Date

                   February 18, 1997              $51,019     March lo,1998
                   February 26, 1997               38,320     February 27, 1998
                   March 7, 1997                   30,304     February 27, 1998
                   April 14, 1997                  13,628     February 25, 1998
                   May 12,1997                     14,724     February 25,1998
                   June 6,1997                      5,674     March 31, 1998
                   June 6,1997                      9,336     April 6, 1998
                   June 6,1997                     10,167     May 7,1998
                   June 17, 1997                   15,312     March 7,1998
                   July 9, 1997                     7,053     March lo,1998
                   July 9, 1997                     9,096     March 18, 1998

                   Total Cost                 $204,633


Because multiple purchases were made within various 30-day periods (including three on
June 6,1997) and the computer equipment acquired through this series of purchases was all
delivered within the relatively short period of about 2 l/2 months, we believe that the
purchases should have been combined and competitive bids solicited to ensure that the
Department obtained the most advantageous prices. In our opinion, these purchases were not
in compliance with the open market restriction contained in Title 3 1, Section 239(a)(3), of
the Virgin Islands Code and the intent of the requirement of the Code of Federal Regulations
(34 CFR 80.36(a)) which states that entities should use their normal procurement policies
and procedures for Federally funded procurements.

The Department of Education should conduct a review of its internal procurement process
to identify opportunities to streamline and expedite the process and establish internal
procedures that ensure compliance with Federal and local competitive procurement
requirements and consolidation of supply and equipment needs of schools and other
Departmental units to allow for the more cost-effective procurement of such items.

                                             11
Control of Equipment

The Code of Federal Regulations (34 CFR 80.32(b)) states, “A State will use, manage and
dispose of equipment acquired under a grant by the State in accordance with State laws and
procedures.” Accordingly, the Government Property Manual, issued by the Department of
Property and Procurement, requires that (1) records be maintained for capitalized equipment
that adequately identify the units of equipment, including their cost, and “provide a
permanent record of the acquisition and disposition of all capitalized property and provide
information needed for inventory control and management purposes”; (2) a complete physical
inventory of all capitalized equipment be performed at least once biennially and at more
frequent intervals “whenever experience at any given location or with any given item
indicates that this action is necessary”; and (3) “prescribed physical inventories of property,
except that which is exempted shall be reconciled with the responsibility, accountability,
stores, and such other records as may be maintained for inventory control purposes.” The
Department of Education did not effectively comply with these requirements with regard to
equipment purchased with Consolidated Grant funds.

We found that the Department’s warehouse personnel did not have adequate controls to
safeguard equipment from theft, loss, or damage. Although the Department’s central
warehouse on St. Thomas maintained property control records and performed periodic
physical inventories of equipment, the warehouse did not have adequate measures to
safeguard equipment. For example, the roofofthe building leaked, requiring warehouse staff
to move supplies and equipment to prevent them from getting wet when it rained. Although
a warehouse official told us that a cage where sensitive equipment was stored was kept
locked, we noticed, during our site visit to the warehouse in December 1998, that the cage
was unlocked.

At the July 28, 1999, exit conference on the preliminary draft of this report, Department
officials stated that the security cage for sensitive items was sometimes kept unlocked during
working hours but was always locked at other times.

On St. Croix, there was no central location for receiving equipment delivered by vendors.
Equipment was received at the Department’s warehouse; the Maintenance Division; and the
Media, Library and Technology Office. In addition, equipment was sometimes delivered
directly to the schools. Although the warehouse had a logbook for recording incoming
shipments, warehouse personnel did not place Government property tags on incoming
equipment. According to a warehouse official, warehouse personnel left that task to school
personnel because of insufficient staffing at the warehouse. As a result, there was little
assurance that all incoming equipment at the warehouse was properly tagged. Additionally,
the Maintenance Division also did not tag incoming equipment and did not maintain property
control records other than acknowledgment receipts showing the dates and the persons to
whom equipment items were assigned. The Media, Library and Technology Office had an
internal inventory system specifically for computers, which documented the descriptions and
serial numbers of the items and the programs for which the items were purchased. None of
the three facilities had property control procedures and records that were adequate to


                                              12
safeguard equipment and to ensure compliance with the Federal property management
requirements.

During a site visit to a St. Croix school in April 1999, we attempted to locate 11 items of
equipment (4 computers, 3 monitors, 3 printers, and 1 digital camera) that were delivered to
the school in May 1998. We found that the items were stored in a leaky closet at the school
and that no one in authority was aware of the stored equipment, although an instructor
informed us that he had been inquiring about the requisitioned items. This situation was
brought to the attention of the District Superintendent, who directed a school official to use
the equipment immediately. At another St. Croix school, five computers were delivered
directly to the school in July 1998, but the computers had not been tagged and the vendor’s
invoice did not show the serial numbers. Therefore, the items were at risk of loss or theft.
Additionally, four of the five computers were stored in a room with roof leaks that was
undergoing construction work.

       Disposal of Equipment. In accordance with procedures in the Government Property
Manual, when property is deemed obsolete, a Report of Survey is prepared by the school and
submitted to the Department of Property and Procurement, along with the item to be disposed
of. However, we found that the Department of Education’s warehouse facilities were not
provided with copies of the Reports of Survey and were not involved in the disposition
process.

We believe that the Department of Education should establish internal property management
procedures to ensure that it meets the requirements of the Government Property Manual and
provides an adequate level of safeguards to protect equipment purchased with Consolidated
Grant funds. Based on our limited review of procurement transactions, we estimate that
equipment costing at least $1 million was purchased with Consolidated Grant funds during
fiscal years 1997 and 1998.

Recommendations

We recommend that the Governor of the Virgin Islands direct the Commissioner of
Education to:

        1. Perform a review of the Department of Education’s internal procurement process
to identify opportunities for streamlining and expediting the process.

        2. Establish and implement internal procedures to ensure that Federal and local
competitive procurement requirements are complied with and that supply and equipment
needs of schools and other Department of Education units are consolidated to allow for more
cost-effective procurements of such items.

      3. Establish and implement internal property management procedures to ensure that
the Department of Education meets the property management requirements of the
Government Property Manual and provides an adequate level of safeguards to protect
equipment purchased with Consolidated Grant funds from loss or theft.

                                             13
Governor of the Virgin Islands Response and Office of Inspector General
Reply
The Governor of the Virgin Islands did not provide a response to the report. Therefore, the
recommendations are unresolved (see Appendix 2).




                                            14
C. SCHOOL LUNCH WAREHOUSE OPERATIONS

The Virgin Islands Department of Education did not have adequate control over food and
other commodities in the Department’s School Lunch Program warehouses. Specifically,
perpetual inventory records were inaccurate and were not reconciled to computerized
inventory reports, physical inventory counts were inaccurate and were not performed for
locally purchased commodities, and inventory reports were not submitted timely. The Code
of Federal Regulations contains the administrative requirements (7 CFR 210) for the
National School Lunch Program and requirements (7 CFR 250) for the Donated Food
Program. However, the School Lunch Program warehouses did not have complete and
consistent inventory control procedures, adequate segregation of duties, and adequate
facilities for the storage of food items needing refrigeration. As a result, food and other
commodities of an undeterminable value were subject to loss, pilferage, and spoilage.

Federal Food Commodities

The Code ofFederal Regulations (7 CFR 250.16) requires that accurate and complete records
be maintained with respect to the receipt, distribution, and inventory of donated foods.
During March and April 1999, we performed a limited review of School Lunch Program
warehouse activities on St. Thomas and St. Croix to determine compliance with these
requirements. During fiscal years 1997 and 1998, the School Lunch Program warehouses
on St. Thomas and St. Croix received 46,540 cases of donated food and other commodities
from the U.S. Department of Agriculture for the School Lunch Program and the Temporary
Emergency Food Assistance Program. These donated commodities were referred to as
“Federal commodities.” All of the commodities were shipped to the St. Thomas warehouse,
and part of the commodities were then transshipped to the St. Croix warehouse.

On St. Thomas, a manual log was kept of each shipment received, whereas on St. Croix a
computerized shipment log was maintained. Perpetual inventory records were kept on blue
inventory cards at both warehouses. When commodities were delivered to schools or
nonprofit organizations, a “card check” was prepared by warehouse officials to show the
quantity of each item shipped, received, and signed for by the recipient. The St. Thomas
warehouse used prenumbered card check forms, which were filed by school. The St. Croix
warehouse used unnumbered card check forms, which were filed by month. Despite these
established procedures, we found errors in the inventory records as follows:

        - Perpetual inventory records were not accurate and were not routinely reconciled to
monthly computerized physical inventory reports. At the St. Thomas warehouse, based on
our comparison ofthe balances for 2 1 food commodities as shown on the perpetual inventory
cards and the computerized physical inventory report as of February 26,1999, we found that
the balances for 15 items were not in agreement. At the St. Croix warehouse, we similarly
compared the balances for 26 food commodities as shown on the perpetual inventory cards
and the computerized physical inventory report as of April 20, 1999, and found that the
balances were not in agreement for 23 items.



                                            15
         - Physical inventory counts were not accurate. For example, on November 27, 1998,
the St. Croix warehouse did not have any meatballs in stock but received a shipment of
2,122 cases of meatballs later that day. A physical inventory performed on April 20, 1999,
showed that 1,922 cases were in stock, meaning that 200 cases should have been distributed
during the period of November 27, 1998, to April 20, 1999. However, distribution records
and perpetual inventory records showed that 827 cases of meatballs were distributed during
that period and that the quantities on hand should have been 1,295 (2,122 minus 827). A
warehouse official stated that the physical inventory count could not have been correct, but
an official ofthe School Lunch Program State Office stated that about 700 cases of meatballs
had been unaccounted for when the latest shipment (as of April 20, 1999) was received.
Therefore the quantity of meatballs received at the warehouse and the quantity distributed
during the time period involved were uncertain.

Based on our review of warehouse operations for Federal commodities, we found that
physical inventory reports were not submitted timely to the State Office. Warehouse
managers are required to submit monthly inventory reports within 15 days after the end of
each month. However, we found that for fiscal year 1998, the St. Thomas warehouse
submitted 10 of 12 inventory reports from 1 to 4 months late and that the St. Croix
warehouse did not submit 4 of the 12 inventory reports and did submit 3 of the remaining
8 reports from 1 to 2 months late. We also noted that the St. Croix warehouse did not have
a refrigerated storage unit and that food commodities requiring refrigeration were stored at
various schools, which made it difficult to safeguard the food commodities.

Food Commodities From Local Vendors

In addition to items provided by the U.S. Department of Agriculture, the School Lunch
Program purchased food and other commodities from local vendors for distribution to
schools. These locally purchased items were referred to as “insular commodities.” The
inventory control procedures used for insular commodities were different from those used
for the Federal commodities. On St. Thomas, a manual logbook was maintained to record
all incoming shipments, and “card checks” were used to record distributions. The St. Croix
warehouse maintained perpetual inventory records on white inventory cards (to differentiate
them from Federal commodities, which were on blue inventory cards), but the St. Thomas
warehouse did not maintain perpetual inventory records for insular commodities.
Additionally, neither warehouse was required to submit monthly physical inventory reports
to the School Lunch Program State Office for local commodities, and the St. Croix
warehouse did not perform periodic physical inventories for such items. As a result, we
found discrepancies in the inventory records for insular commodities as follows:

        - Although the St. Thomas warehouse prepared computerized physical inventory
reports, the reports were not accurate. On March 29, 1999, we performed a physical
inventory count for a judgmental sample of 50 items. For 32 items, the quantities on hand
did not agree with the quantities shown on the warehouse’s physical inventory report for the
same date. For example, we counted 444 cases of apple juice, but the inventory report listed
677 cases. We did not find any cases of chicken drumsticks, but the inventory report listed


                                             16
141 cases. We also did not find any cases of sausage patties, but the inventory report listed
277 cases.

       - For the same sample of 50 items on St. Thomas, we found discrepancies in the
quantities recorded as received from the vendor for 7 items. For example, the vendor’s
invoice showed that 76 cases of chicken breasts were shipped, but only 5 1 cases were
recorded in the manual logbook as received.

        - Prior to April 1999, the St. Croix warehouse had not performed a physical inventory
since August 1988. Additionally, the perpetual inventory cards had not been reconciled to
the results of the April 1999 inventory. For example, for a judgmental sample of 25 items,
we found differences between the physical inventory and the perpetual inventory cards for
18 items.

        - Shipments received by the St. Croix warehouse were not accurately recorded on the
perpetual inventory cards. Our review of a judgmental sample of 52 shipments, representing
18 different items, disclosed that 4 shipments, totaling 13 1 cases of food commodities, were
not recorded in the perpetual inventory cards and that the quantities recorded for 2 items
were incorrect.

        - A log was not maintained of shipments received at the St. Croix warehouse.
Instead, vendor invoices were placed in a folder in reverse chronological order. Although
a warehouse official had created a computer log to record incoming shipments, the log had
not been updated since April 1998.

The Department of Education should require the School Lunch Program to develop
standardized inventory control procedures for all Federal and local commodities that include
(1) establishing and regularly updating perpetual inventory records; (2) maintaining a log of
incoming shipments of commodities; (3) preparing card checks to record acknowledgment
of receipt of all commodities distributed to the schools; (4) performing physical inventories
at least every other month; and (5) reconciling the results of the physical inventories to the
perpetual inventory records, the incoming shipment logs, and the distribution card checks.
We believe that compliance with a comprehensive system of inventory controls is needed
because food commodities are items that are at high risk for pilferage in the distribution
system.

We also found that there was a lack of adequate segregation of duties at the School Lunch
Program warehouses. For example, the same individuals received shipments of food
commodities, made distributions, performed physical inventories, and prepared the monthly
physical inventory reports for submission to the State Office. These conditions occurred
because the tasks were not specifically assigned to different warehouse personnel. This
internal control weakness further increased the potential for the pilferage of food and other
commodities.




                                             17
Recommendations

We recommend that the Governor of the Virgin Islands direct the Commissioner of
Education to:

        1. Require the School Lunch Program to develop and implement standardized
inventory control procedures for all warehouses that store Federal and local commodities.
These procedures should include establishing and continuously updating perpetual inventory
records; maintaining logs of incoming shipments of commodities; preparing card checks to
record acknowledgment of receipt of all commodities distributed to the schools; performing
monthly physical inventories; reconciling the results of the physical inventories to the
perpetual inventory records, the incoming shipment logs, and the distribution card checks;
and submitting monthly physical inventory reports to the State Office within the established
15day time frame.

         2. Require the School Lunch Program to assign tasks to warehouse personnel in
such a manner as to segregate the primary duties and responsibilities of receiving,
distributing, accounting for, and reporting on food and other commodities.

        3. Provide the School Lunch Program with refrigerated storage units and other
storage facilities necessary to safely maintain food items at the centralized warehouses.

Governor of the Virgin Islands Response and Office of Inspector General
Reply
The Governor of the Virgin Islands did not provide a response to the report. Therefore, the
recommendations are unresolved (see Appendix 2).




                                            18
                               OTHER MATTERS
Our audit of selected Federal grant programs at the Department of Education disclosed
several deficiencies related to the processing of Department of Education transactions by the
Virgin Islands Department ofFinance. Specifically, we found that (1) drawdowns of Federal
grant funds were not timely posted to the appropriate accounts in the Government’s Financial
Management System, (2) provisions ofthe Cash Management Improvement Act of 1990 had
not been adequately implemented, (3) payroll deductions (such as income taxes and Social
Security taxes) were not timely paid to the appropriate agencies, and (4) indirect costs were
charged to the Federal grants without the existence of executed indirect cost proposals.
However, because similar problems have been disclosed in other audits of Federal grant
programs that were in progress as of August 1999, we will report on these issues and provide
specific recommendations .in a separate audit report to be issued after completion of the
ongoing grant audits.




                                             19
                                                                    APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS


                                             Ouestioned Costs       Funds To Be
                                           cost       Unsupported       Put To
                     Finding           Exceutions*       costs*     Better Use*

        A. Grant Management

            Personal Services Costs      $61,800        $8,340

             Grant Compliance Issues                                 $39.500

                 Totals                  $61,800        $8,340       $39,500




*Amounts represent Federal finds.


                                        20
                                                                     APPENDIX 2


     STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            Status                   Action Reauired

  A.1, A.2, A.3, A.4,    Unresolved.      Provide a response to the
       and A.5                            recommendations that indicates
                                          concurrence or nonconcurrence. If
                                          concurrence is indicated, provide a
                                          plan of action, including target dates
                                          and titles of the officials responsible
                                          for implementation. If nonconcurrence
                                          is indicated, provide reasons for the
                                          nonconcurrence.

   B.l, B.2, and B.3     Unresolved.      Provide a response to the
                                          recommendations that indicates
                                          concurrence or nonconcurrence. If
                                          concurrence is indicated, provide a
                                          plan of action, including target dates
                                          and titles of the officials responsible
                                          for implementation. If nonconcurrence
                                          is indicated, provide reasons for the
                                          nonconcurrence.

   C.l, C.2, and C.3     Unresolved.      Provide a response to the
                                          recommendations that indicates
                                          concurrence or nonconcurrence. If
                                          concurrence is indicated, provide a
                                          plan of action, including target dates
                                          and titles of the officials responsible
                                          for implementation. If nonconcurrence
                                          is indicated, provide reasons for the
                                          nonconcurrence.




                                     21
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


                    Internet Complaint Form Address

                   http://www.oig.doi.gov/hotline_form.htmI

Sending written documents to:                          Calling:



                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W’.                                   l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                  North Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MTB
Washington, D.C. 20240-000 1

Toll Free Numbers
      l-800-424-508 1
      TDD l-800-3 54-0996

FTS/Commercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
